Wealth Management Visa Signature Credit Card Agreement
(May Not Be Available to Residents of All States)
This Agreement and the documents listed below govern the use of your Visa Signature credit card account
with BBVA USA (“Account”) which may be drawn upon by using either the Visa Signature credit card (a “Card”)
or the Checks which have been imprinted with your name and account number (“Checks”) furnished by BBVA
USA. These other documents are part of this Agreement:
•

The application or solicitation (“Application”) you signed or otherwise gave us to ask for the Account; and

•

The folder sent with each Card (“Card Folder”).

Please read and keep these documents for your records.
1.

Parties and Addresses:
(a)

Bank: In this Agreement, “we”, “us” and “our” refer to BBVA USA and anyone to whom we
give or sell your Account. Unless we tell you otherwise, our mailing address is: BBVA USA
Card Center, P.O. Box 2210, Decatur, Alabama 35699-0001.

(b)

You: “You” and “your” refer to each person (1) who applied for the Account, or (2) who agreed to
be responsible for the Account. We will send bills and other notices to the address you give us.
You promise to tell us right away if that address changes.

2.

Joint Accounts: If you have a joint Account, each of you may use the Account. We may ask any one of
you to pay any balance due. Any one of you may give us any notice under this Agreement. If you give us
different notices or make different requests, we may pick which one to honor without telling any of you.
We will not owe anything to you or anyone else because we picked one of your notices or requests.

3.

Promise to Pay: You promise to pay us for all transactions on your Account, including those by anyone
whom you allow to use the Account. You also promise to pay any interest, fees and other amounts you
owe us under this Agreement. By keeping, using or permitting others to use the Account or any Card, you
agree to the terms of this Agreement.

4.

Governing Law: This Agreement and your Account will be governed by (1) federal law, and (2) to
the extent not preempted by federal law, the laws of Alabama, without regard to its conflicts of law
provisions. We accepted this Agreement in Alabama.

5.

Changing This Agreement: We may change this Agreement unless an applicable law says we may not.
We will tell you when changes will be effective and how they will apply to your Account. You may not
change this Agreement unless we agree in writing.

6.

Using Your Account: You may use your Account to make two types of transactions:
(a)

Purchases: You may purchase or lease goods or services from any merchant that accepts your
Card or Account.

(b)

Cash Advances: You may obtain cash or other advances by using your Card or Account in any of
the following ways:
•

From us or any other financial institution or automated teller machine (“ATM”) that
accepts your Card;

•

By using a Check as explained in Section 16 below. Payments you make to another
creditor using a Check are Cash Advances under this Agreement;

•

By purchasing items that can be traded right away for cash, such as wire transfers,
money orders, traveler’s checks, lottery tickets or casino chips; or

F03-X957-1 Y/CFPB MLA rev 06/2019 RB

1

•

By placing bets or wagers (if legal) or to make tax or other similar payments.

7.

Illegal and Online Gambling Transactions: You agree not to use your Account for any transaction that
is illegal where you live or where the transaction takes place. You must find out if a transaction is legal
before you make it. You also agree not to use your Account for any Internet or online gambling
transaction, even if it is legal. We may refuse to authorize any illegal, Internet or online gambling
transaction. If we do authorize the transaction, you agree to pay us for it unless an applicable law says
you may not.

8.

Credit Limits: We will tell you your starting credit limits on the Card Folder. Your billing statements also
will show your credit limits and available credit.

9.

10.

(a)

Separate Limits: We will give you a credit limit for your Account. We also may give you different
limits for different types of transactions. For example, we may tell you that you can only use part
of your credit limit for Cash Advances.

(b)

When Your Payments Increase Available Credit: We may delay increasing your available credit
for up to 10 days after you make a payment.

(c)

Authorizing Requested Transactions: Each attempt by you or any authorized user to make a
Purchase or to obtain a Cash Advance on your Account, whether with a Card or Check or
otherwise, is considered a request for credit under this Agreement in the amount of that
transaction (a “Requested Transaction”). Your Account has no pre-set spending limit. This does
not mean that you may make unlimited Purchases or obtain unlimited Cash Advances. It means
that we will evaluate each Requested Transaction and determine, in our sole discretion, whether
to authorize or make payment on that transaction based on a variety of factors, which may
include your Account history, your relationship with us, information from consumer credit reports
obtained from credit bureaus, our understanding of your payment resources, the outstanding
balance on your Account, prior Cash Advances on your Account, safety and soundness
considerations, and whether the transaction appears to be fraudulent. In certain circumstances,
we may ask for additional information to determine whether we will authorize or make payment on
a Requested Transaction. If we authorize or make payment on any Requested Transaction that
would cause the outstanding balance on your Account to exceed your credit limit, you will be
required to pay, as part of your next Minimum Payment Due, the full amount by which your New
Balance exceeds your credit limit, as provided more fully in Section 13 below. This Agreement will
apply to any credit we have extended to you in excess of your credit limit.

(d)

Changes to Your Credit Limit: You may request an increase in your credit limits by calling us at 1866-681-0484, and we might agree to your request. We may change your credit limits at any
time. For example, we may (1) increase or decrease any of your credit limits or (2) cancel your
available credit. We will tell you first or get your permission if an applicable law requires us to.
You still will have to pay all amounts you owe under this Agreement.

Billing Statements: We will send you a bill at the end of each monthly billing cycle if applicable law
requires. Read each bill as soon as you get it. Tell us right away if you see any error or problem. Your bill
will show important information about your Account, including:
•

The unpaid balance at the end of the billing cycle (“New Balance”);

•

The minimum amount of your next payment (“Minimum Payment Due”);

•

When your next payment is due (“Payment Due Date”); and

•

The date of the bill (“Statement Date”).

Interest: Each billing cycle, we will charge interest to you on the average daily balance for each type of
transactions on your Account. By type of transactions, we mean Purchases, Cash Advances and any
transactions subject to a special offer. To calculate the interest owed on your Account for each billing
cycle, we first figure out the average daily balance for each type of transactions. Next, we multiply the
2

average daily balance by the applicable interest rate. Interest rates are explained in the next section.
Then, we multiply the resulting amount by the number of days in the billing cycle. After calculating the
amount of interest owed for each type of transactions, we add together these amounts to determine the
total amount of interest owed on your Account for the billing cycle.
(a)

Average Daily Balance: To get the average daily balance for each type of transactions, (1) we
take the beginning balance for that transaction-type, (2) we add any new transactions, debits and
fees, and (3) subtract any payments or credits. This gives us the daily balance.
•

The beginning balance for Purchases will include any unpaid Purchase transactions; any
unpaid interest on those Purchases; any unpaid Late Fee, Returned Payment Fee and
Document Fee; and any unpaid Foreign Transaction Fee charged on a Purchase,
including any Purchase subject to a special offer APR.

•

The beginning balance for Cash Advances will include any unpaid Cash Advance
transactions; any unpaid interest on those Cash Advances; any unpaid Skip Payment
Fee, Expedited Payment Fee, Transfer Fee and Rate Reduction Fee; and any unpaid
Cash Advance Fee and Foreign Transaction Fee charged on a Cash Advance, including
any Cash Advance subject to a special offer APR.

•

The beginning balance for any transactions subject to a special offer APR will include any
unpaid balance on those transactions, and any unpaid interest on those transactions.

Next, we add up all the daily balances for the billing cycle, and then divide this total by the
number of days in the billing cycle. This gives us the average daily balance.

11.

(b)

When Interest Charges Start on Cash Advances: We start charging interest on Cash Advances
on the transaction date. For Checks, the transaction date is the later of (1) the date we get and/or
pay the Check or (2) the first day of the billing cycle in which we add the transaction to your
Account. For other Cash Advances, the transaction date is the later of (1) the date you get the
Cash Advance or (2) the first day of the billing cycle in which we add the transaction to your
Account. There is no way to avoid interest on Cash Advances.

(c)

Avoiding Interest on Purchases (Grace Period): Your Payment Due Date is at least 25 days after
the close of each billing cycle. We will not charge you interest on Purchases if you pay your entire
balance by the Payment Due Date each billing cycle. Where required by applicable law, we will
not charge interest on any portion of a Purchase balance that is repaid by the first specified due
date after each Purchase was made if you paid the entire balance for the previous billing cycle by
the specified due date. Except as described above, if you do not pay your entire balance by the
Payment Due Date, we will start charging interest on each new Purchase on the later of (1) the
date you make the Purchase, or (2) the first day of the billing cycle in which we add the Purchase
to your Account. We will pay down your Purchase balance and other balances as described in
“Payment Allocation” in Section 13(d) below.

Interest Rates: We figure out how much interest you owe each billing cycle using daily periodic rates. We
get the daily periodic rates by dividing each annual percentage rate (“APR”) below by 365. The interest
rates that apply to your Account are variable rates that may change from month to month.
(a)

APR for Purchases: The APR for Purchases will be equal to the Prime Rate plus one point ninetynine percentage points (1.99%).

(b)

APR for Cash Advances: The APR for Cash Advances will be equal to the Prime Rate plus one
point ninety-nine percentage points (1.99%).

(c)

Discounted Introductory APR: From time to time we may offer a discounted introductory APR.
Any discounted introductory APR that applies to your Account will be shown on the Card Folder.

(d)

Variable Rates: Except for any discounted introductory APR, your APRs will vary with the market
based on the Prime Rate. We use the Prime Rate in the Wall Street Journal in effect at the close
3

of business on the last business day of the calendar month ending within each billing cycle. Your
APRs may increase if the Prime Rate increases. If your APRs increase, the amount of interest
you will owe and the Minimum Payment Due may increase.
(e)

12.

Reevaluation of Increased Rates: If the APRs on your Account are increased, we will reevaluate
your Account as required by law to determine whether you qualify for an APR reduction.

Fees: You agree to pay the following fees, which will be charged to your Account.
(a)

(b)

(c)

Transaction Fees:
•

Cash Advance Fee: For each Cash Advance drawn on your Account, a fee of $10 or 2%
of the Cash Advance, whichever is greater, except that the Cash Advance Fee will not
exceed $100. This fee will not be charged on any Cash Advance obtained through the
use of a Check.

•

Foreign Transaction Fee: A fee of 2% of each transaction made (1) in a foreign currency,
(2) outside of the United States, or (3) with a foreign merchant, even if that transaction is
made in U.S. dollars. We may charge a Foreign Transaction Fee for each transaction
(including returns or refunds) at the time we add the transaction to your Account. The fee
will be based on the U.S. dollar amount Visa provided to us.

Penalty Fees: We will charge penalty fees in an amount established by the Bureau of Consumer
Financial Protection, which currently is $25. The Bureau of Consumer Financial Protection may
adjust this amount annually to reflect changes in the Consumer Price Index (CPI), and we may
revise any of the penalty fees below to reflect the CPI adjustments. We will not charge more than
one penalty fee for a single event or transaction that violates multiple terms of this Agreement.
•

Late Fee: A fee if we do not receive at least the Minimum Payment Due by the Payment
Due Date (or the next business day if your Payment Due Date falls on a Saturday,
Sunday or holiday). The amount of this fee will be $25 or the full amount of the Minimum
Payment Due (as shown on your billing statement) that was due immediately before the
fee is assessed (rounded up or down to the nearest dollar), whichever is less.

•

Returned Payment Fee: A fee if a check or similar instrument or any debit for payment on
your Account is returned unpaid for any reason. The amount of this fee will be $25 or the
full amount of the Minimum Payment Due that was due immediately before the payment
was returned (rounded up or down to the nearest dollar), whichever is less. We will
charge the fee even if the check or debit is later honored or paid.

•

Returned Check Fee: A fee if we return a Check for any reason. The amount of this fee
will be $25 or the amount of the Check that is returned (rounded up or down to the
nearest dollar), whichever is less.

Other Fees:
•

Stop Payment Fee: A fee of $29 for each stop payment request on a Check, as described
in Section 16, whether or not we actually stop payment, subject to any restrictions of
applicable law.

•

Expedited Delivery Fee: A fee of $20 if you request and we agree to arrange for
expedited delivery of any Card or Checks to you (for example, by an overnight delivery
service).

•

Document Fees: If you request copies of sales slips, paid Checks or duplicate copies of
billing statements, we will charge $5 for each item requested. There will be no charge for
any item you request in good faith in connection with the resolution of any disputed billing
matter.

F03-X957-1 Y-MLA rev 06/2019 RB

4

13.

•

Expedited Payment Fee: A fee of $15 if you request us to expedite payment on your
Account by debiting any deposit or other account you designate, and we honor your
request.

•

Skip Payment Fee: A fee of $35 if we offer and you accept the option to skip any monthly
payment and your Minimum Payment Due would have been $200 or more.

•

Rate Reduction Fee: A fee of $20 if a reduction in any interest rate, fee or other charge
is offered by us and accepted by you, or requested by you and honored by us, even if this
reduction is only for a temporary or limited time period. If we intend to charge this fee, we
will tell you about the fee orally or in writing at the time we offer or agree to the reduction.

Minimum Payment Due: The Minimum Payment Due each billing cycle will depend on your New
Balance.
(a)

You must pay the greater of:
•

$10; or

•

2% of either the New Balance or the amount of your credit limit, whichever is less,
rounded up or down to the nearest dollar plus (1) any unpaid Minimum Payments Due
from previous bills and (2) any amount of your New Balance that exceeds your credit limit
and is not already included as part of any unpaid Minimum Payments Due from previous
bills.

However, if the New Balance is less than $10, you must pay the New Balance.

14.

(b)

What Happens if You Pay More: You may pay more than the Minimum Payment Due at any time.
You will not owe us any additional charge for early payment. If you pay more than the Minimum
Payment Due in one billing cycle, you still have to pay the full Minimum Payment Due in the next
cycles. You cannot increase the amount of your credit limit by paying more than the unpaid
balance on your Account.

(c)

Skip Payment Offers: We may let you skip a payment. We will tell you when you can skip a
payment. If you do, (1) we may charge a fee in an amount we tell you at the time of the offer, (2)
you will owe interest for the skipped billing cycle, (3) you will lose any grace period that otherwise
would apply and (4) you must pay the regular Minimum Payment Due for the next billing cycle.

(d)

Payment Allocation: We will use your Minimum Payment Due to pay down balances on your
Account (including Purchases, Advances, interest, fees and other amounts) in any way we
choose, unless an applicable law says we may not. If you make a payment that is larger than the
Minimum Payment Due, we will apply the extra amount first to the balance with the highest
interest rate, and any remaining portion of that extra amount to the other balances in descending
order based on the applicable interest rate.

Making Payments: You must pay us in U.S. dollars. Mail your personal check or money order to the
address shown on your bill. Do not send cash. If you do not follow these instructions, we might not credit
the payment for up to five business days after we get it.
(a)
Disputed
Payments:
If you dispute any amount we say you owe under this
Agreement, you must write to us at BBVA USA Card Center, P.O. Box 2101, Decatur, Alabama
35602- 2101. If you pay us with a check marked with “payment in full” or similar words, you
must send it to this address. Subject to any restrictions of applicable law: (1) the words
“payment in full” or similar words will have no effect; and (2) we can take disputed
payments without giving up any of our rights.
(b)

Paying at Branches, Online and By Telephone: If we let you pay at one of our branches, we will
credit the payment as of the day we get it. If we let you pay online or by phone, we will tell you
how to pay and when your payment will be credited.
5

(c)

Timing for Mailed Payments: If you mail a payment to the address shown on your bill, your
payment will not be considered late if we receive it by 5 p.m. Central Time on the Payment Due
Date (or the next business day if your Payment Due Date falls on a Saturday, Sunday or holiday).

15.

Special Offers: We may make a special offer to you. For example, we may offer a reduced promotional
interest rate. Such offers may apply to all transactions or balances on your Account, or only to some
transactions or balances. We will tell you what terms of the special offer differ from the terms of this
Agreement. Except as we tell you in a special offer, the rest of this Agreement will still apply to your
Account.

16.

Checks: We may issue Checks. You may complete and sign a Check to make a Cash Advance. You
may not use a Check to pay any amount you owe us. We do not have to pay or certify any Check.
(a)

Returning Checks: We do not have to pay (and may return unpaid) any Check if:
•

You are in default under this Agreement;

•

We suspended or terminated your credit privileges;

•

We told you not to use the Account, Card or Checks for any reason;

•

The Check is postdated or stale. This means the date you put on the check is a date
which is either (1) later than the date we get it, or (2) more than six months before the
date we get it; or

•

You did not fully complete and/or sign the Check.

If we pay a Check anyway, you still have to pay us the amount of that Check and any applicable
interest or fees. If we don’t pay a Check, we may charge a Returned Check Fee.
(b)

Paid Checks: Your bill will show Checks we paid. We will not return Checks to you. You may ask
us for copies of paid Checks. We may charge you a Document Fee for each copy.

(c)

Stopping Payment on a Check: You may ask us to stop payment on a Check or cancel a stop
payment request. Call us at 1-866-681-0484 or write us at the address in Section 1(a). If you call,
we may ask you to put your request in writing. You must tell us: (1) your Account number, (2) the
date, number and amount of the Check and (3) the name of the payee. We need at least four
hours advance notice to be able to stop payment. We will not owe anything to you or anyone else
if we stop (or do not stop) a payment or cancel (or do not cancel) a stop payment request. We
may charge a Stop Payment Fee, whether or not we actually stop payment.

17.

Currency Conversion: Visa will convert the amount of any transaction you make in a currency other than
U.S. dollars into U.S. dollars. Visa will use its own currency conversion procedures in effect at that time.
Visa will pick an exchange rate on the processing date using either (1) the range of rates available in
wholesale currency markets (which rate may differ from the rate Visa could get) or (2) the rate required by
the government. The exchange rate used may differ from the exchange rate on the date you made the
transaction. If you make a return or get a refund, the same procedures apply. The amount of any return or
refund credit to your Account may be slightly different from the amount of the original transaction because
the exchange rate changes from day to day.

18.

Default: If you do or fail to do certain things, you will be in default under this Agreement. If you are in
default, we have certain rights and you have certain duties under this Agreement. In deciding whether you
are in default and in using any of our rights, we will follow applicable law.
(a)

Events of Default: We may decide you are in default if you:
•

Fail to make a payment on this Agreement or any other agreement with us when due;

6

•

Make a payment that is not paid by your bank;

•

Fail to do anything this Agreement requires;

•

Do anything this Agreement prohibits;

•

File or have filed against you a bankruptcy petition;

•

Die, become legally incompetent or go to jail;

•

Give us false or incomplete credit information, false signatures or make any material
misrepresentation;

•

Lose your Card or Checks (including if they are stolen).

We also may decide you are in default if (1) we find you no longer qualify for any APR or credit
limit then in effect on your Account or (2) we believe in good faith that you will not be able to pay
what you owe for any other reason.
(b)

What Happens When You Are in Default: We may (1) suspend or terminate your credit privileges,
(2) close your Account and/or (3) ask you to pay the full amount you owe right away. We will tell
you first before doing these things if an applicable law requires us to. You still have to pay all
amounts you owe us.

19.

Collection Costs: We may charge you for costs we have to pay to collect what you owe after default.
These costs may include reasonable fees to attorneys who are not our paid employees. We will not
charge you for our collection costs if you owe us $300 or less or an applicable law says we may not.

20.

Closing Your Account:
(a)

We May Limit Use Of or Close Your Account: We may (1) temporarily take away your ability to
make transactions or otherwise use your Account, (2) delay reissuing your Card, or (3) close your
Account. We may do these things at any time, but will tell you first if an applicable law requires us
to. You must destroy all Cards and unused Checks if we tell you to. You still have to pay all
amounts you owe us. If you are not in default when your Account is closed, you may pay off the
balance under the terms of this Agreement that apply at that time. We can use all the rights and
remedies we have under this Agreement until all amounts are repaid. We will not owe anything to
you or anyone else if we do any of these things.

(b)

You May Close Your Account: You may close your Account at any time by telling us in writing.
You must destroy all Cards and unused Checks if we tell you to. You still have to pay all amounts
you owe us. If you are not in default when you close your Account, you may pay off any balance
under the terms of this Agreement that apply at that time.

21.

Information About You and Your Credit: You promise that the information you gave us to open your
Account is true. You also promise to tell us right away and to stop using the Account if (1) you plan to file
for bankruptcy, or (2) are otherwise unable to pay your debts. We may look again at your financial
condition and credit standing at any time and for any reason. We may get a current credit report or ask
you for current financial information or documents. For example, we may ask about your property and
debts. We also may ask for copies of your tax returns or verification of your employment and income. You
agree to let us do this and help with any investigation of your credit record. A negative credit report
reflecting on your credit record may be submitted to one or more credit reporting agencies if you fail to
fulfill your obligations under this Agreement.

22.

Inaccurate Information: Write to us at the address in Section 1(a) if you believe that (1) we have
information about you that is inaccurate or (2) we have reported or may report inaccurate information
about you to a credit reporting agency. Tell us exactly what information you believe is inaccurate.

23.

Liability For Unauthorized Use: If you notice the loss or theft of your Card or a possible unauthorized
7

use of your Card, you should write to us immediately at BBVA USA Card Center, P.O. Box 2210,
Decatur, Alabama 35699-0001, or call us at 1-866-681-0484. You will not be liable for any
unauthorized use that occurs after you notify us. You may, however, be liable for unauthorized use that
occurs before your notice to us. In any case, your liability will not exceed $50.
24.

Telephone Monitoring; Consent to Communication: To make sure our employees give accurate and
courteous customer service, sometimes your call may be monitored by a second employee and/or
recorded. You agree to this monitoring and recording. We may contact you using (1) any information or
phone numbers (including cell phone numbers) you provide to us on your Application or otherwise, and
(2) an automated telephone dialing system and/or artificial or prerecorded voice message, even if you are
charged for the call under your phone plan.

25.

We Do Not Give Up Our Rights by Not Using Them: Sometimes we might decide not to do something
we could do under this Agreement, like charging you a fee. Or, we might decide to do something less
than what we could do, like charging you a lower fee or wait a few days before charging a fee. If we do
this one or more times, this does not mean we have to do it again. We can do all the things this
Agreement allows in the future, even if we did something different one or more times in the past. We also
might decide, for example, to:
•

Accept late or partial payments;

•

Give you more time to make a Minimum Payment Due;

•

Reduce or not charge any interest or fee you would otherwise owe;

•

Let one or more of you out of your promises under this Agreement without telling the others or
letting them out of their promises.

If we do any of these things, we will not lose any of our rights under this Agreement.
26.

Authorizing Transactions; Acceptance of Your Card: A merchant does not have to accept your Card,
Checks or Account. We will not owe anything to you or anyone else if (1) we decline to authorize or make
payment on any Requested Transaction, even if it would not cause the outstanding balance on your
Account to exceed any credit limit described in Section 8 above, or (2) a merchant will not accept your
Card, Checks or Account. Also, we will not owe anything to you or anyone else for goods or services you
bought or leased using your Account.

27.

Assignment; Binding Effect; Severability: We may sell or give your Account, this Agreement and our
rights or duties under this Agreement to any other person or company. We can do this at any time without
telling you first or getting your permission. You may not sell or give your Account or any of your rights or
duties under this Agreement to any other person or company. This Agreement will be binding on your
heirs and legal representatives. This means they may have to pay if you die or become legally
incompetent. If a court with proper authority finds any part of this Agreement is not valid or cannot be
enforced, the other parts still will apply.

28.

MILITARY LENDING ACT
Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may not exceed an annual percentage rate
of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs
associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified
credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account).
Notwithstanding any other provision of this Agreement, if you are a “covered borrower” under the
Military Lending Act, as defined in 32 CFR § 232.3(g), the arbitration provisions in this Agreement
shall not apply to you. Furthermore, nothing in this Agreement shall be construed as applying to
a covered borrower to the extent inconsistent with the Military Lending Act.
8

29.

Dispute Resolution
(a)

This subsection (a) applies if you reside outside California.

Arbitration: Either you or we may ask to settle disputes by arbitration. Arbitration is a way of working out
disputes without going to court. If you or we ask for arbitration, we would all meet with a person called an
arbitrator. An arbitrator is like a referee or a judge. The arbitrator will listen to what you and we have to
say. The arbitrator will decide who is right. The arbitrator’s decision is called an award. The party who
wins the award can take it to any court that could have heard the dispute and get an official judgment.
Please read the rest of this section carefully. It explains how arbitration works.
Some Legal Rights May Not Be Available in Arbitration: After any party asks for arbitration of a
dispute, neither you nor we can ask a court to hear that dispute. There will be no jury trial of that
dispute. You cannot be part of any class action relating to that dispute. The right to get
information from each other and other procedures may be more limited in arbitration than in
court. With a few limited exceptions, the arbitrator’s award will be final and unchangeable. Other
rights that you or we would have in a court also may not be available in arbitration.
•

What Disputes Are Covered: Any dispute that arises from or relates to this Agreement, your
Account and any transaction involving the Account will be settled by arbitration unless it is
described below in “What Disputes Are Not Covered.” This means that disputes about the
following are covered:
o

This Agreement, your Account or any transaction involving the Account;

o

Any advertisement, promotion or oral or written statement related to this Agreement or
your Account;

o

Any relationships that result from this Agreement (including, as far as applicable law will
allow, relationships with third parties who are not parties to this Agreement or this
arbitration provision);

o

The validity, interpretation, scope or enforceability of this Agreement (except for any
challenge to the enforceability of this Dispute Resolution section or any dispute about the
parts of this subsection (a) about class disputes); and

o

Whether it is too late to settle a dispute because of any statute of limitations, estoppel,
waiver, laches or similar legal rule.

It doesn’t matter whether the dispute is based on contract, fraud, tort, intentional tort, statute,
regulation, constitution, common law, equity or otherwise. It also doesn’t matter when the dispute
began (whether before this Agreement, now or in the future). This arbitration provision will
continue to apply after this Agreement ends and/or after you or we close the Account.
•

•

What Disputes Are Not Covered: This arbitration provision does not cover any dispute:
o

That you or we could take to a small claims court, which usually limits its cases based on
the amount of the claim; or

o

About the parts of this arbitration provision that prohibit class disputes.

No Class Disputes: You cannot join together in a dispute with anyone other than people who use
your Account. Even if other people have disputes similar to a dispute that you or we ask to
arbitrate, those people and their disputes cannot be part of any arbitration between you and us.
You cannot arbitrate any dispute on a class action, private attorney general or other
representative basis. Only a court, and not an arbitrator, may decide whether this provision
prohibiting class disputes can be enforced.

9

•

Who Will Arbitrate: The American Arbitration Association (“AAA”) or JAMS ADR (“JAMS”) may
arbitrate any dispute, or you and we may agree upon a different arbitrator. For more information
about arbitration, contact the AAA (www.adr.org or 1-800-778-7879) or JAMS (www.jamsadr.com
or 1-800-352-5267). If for any reason the AAA or JAMS is unable or unwilling to arbitrate, or you
and we cannot agree on an arbitrator, we will use another national or regional arbitration group.
The number of arbitrators will depend on the total dollar amount of all disputes by both you and
us. If the total is $250,000 or less, one arbitrator will hear the dispute(s). If the total is over
$250,000, three arbitrators will hear the dispute(s). Each arbitrator must be an active member in
good standing of the bar for any state in the continental United States, and either: (a) actively
engaged in the practice of law for at least 5 years or (b) a retired judge.

•

What Rules Apply: The arbitration of any dispute will be conducted according to the rules of the
arbitrator (“Rules”). If an arbitrator other than the AAA is chosen, the Rules of the AAA will be
applied to any circumstance that is not addressed by the Rules of the chosen arbitrator. If the
total of all disputes is $250,000 or less, we will use any expedited procedures in the Rules. If this
Agreement and the Rules say something different, we will follow this Agreement and not the
Rules.

•

How To Start Arbitration: Either you or we may start an arbitration by giving written notice to the
other party. At a minimum, this notice must describe the subject of the dispute and the result
requested in arbitration by the party giving the notice. If you ask us to arbitrate, you can choose
the AAA or JAMS, or suggest another national or regional arbitration group to arbitrate the
dispute. If we ask you to arbitrate, we will give you 10 days to choose the AAA or JAMS, or to
suggest another national or regional arbitration group. In either case, if you suggest an alternative
to the AAA and JAMS, we will work with you to determine if you and we can agree on a different
group or arbitrator. If you and we are unable to agree, the arbitration will be conducted by the
AAA or, if the AAA is not available, by a similar arbitration group. The party asking for arbitration
must file a notice with the arbitration group following the Rules in effect at that time.

•

When a Party May Ask for Arbitration: You or we may ask for arbitration before or after a lawsuit
has been filed. You or we must ask for arbitration within the statute of limitations that would apply
to the same dispute in court. If it is too late to resolve the dispute in court, it is also too late to
resolve it in arbitration.

•

What the Arbitrator(s) Must and May Not Do: Each arbitrator must:

•

o

Limit discovery to information that is directly relevant to the dispute and is not considered
confidential or otherwise protected from being made public. Discovery is the process by
which you and we ask each other for information about the dispute;

o

Make decisions and awards based on the evidence and applicable substantive law and
the rules of evidence used in federal courts;

o

Make decisions and awards only with respect to claims made by or against you
individually;

o

Give a brief written explanation of the basis for the award upon request of either party;
and

o

Make specific findings of fact and conclusions of law to support any award greater than
$25,000.

o

Not make any award that would require you and us to continue any relationship we may
have under this Agreement or otherwise.

Who Pays for Arbitration: There will be costs for arbitration. Contact the AAA or other arbitration
group to find out what the arbitration charges will be. You may have to pay some of the arbitration
charges unless this Agreement, an applicable law or the Rules say we must pay. If the total dollar
amount of all disputes is $50,000 or less, we will pay that portion of the arbitration filing fee that is
10

more than the cost of filing a lawsuit in the federal court where you live. You can ask us to pay
some or all of the other arbitration charges you have to pay, but we don’t promise to do as you
ask. At the end of the arbitration, the arbitrator(s) will decide who has to pay for any arbitration
charges that are greater than those we agreed to pay. The arbitrator(s) also may order us to pay
some or all of your attorneys, expert and witness fees. Unless ordered otherwise by the
arbitrator(s), each of us must pay for its own attorneys, expert and witness fees, no matter who
wins.
•

Where Will Arbitration Take Place: Any arbitration will take place in the federal judicial district
near your home. Or, you and we could agree that arbitration will take place somewhere else.

•

What Law Applies: This arbitration provision is made pursuant to a transaction involving interstate
commerce. The Federal Arbitration Act will apply to the construction, interpretation and
enforceability of this arbitration provision despite any other choice of law provision in this
Agreement.

•

Other Rights and Remedies: Nothing in this arbitration provision will limit certain other rights you
or we may have. This means that you or we could, for example:
o

Get an injunction, which is a court order to stop someone from doing something; or

o

File an interpleader action, which is a type of lawsuit used to decide who owns property
that more than one person claims to own.

If you or we do any of these things or take part in any other court case, it does not affect your or
our rights under this arbitration provision.
•

What Happens If Part or All of This Arbitration Provision Cannot Be Enforced: Only a court and
not an arbitrator can determine if any part of this arbitration provision cannot be enforced. If a
court with proper jurisdiction says that any part of the “No Class Disputes” subsection above
(which prohibits arbitration of class disputes) cannot be enforced, then none of the arbitration
section in this Agreement will apply, and this section will be considered deleted from the
Agreement. If a court with proper jurisdiction says that any other part of this arbitration provision
cannot be enforced, then the rest of this arbitration subsection still will apply, including the “No
Class Disputes” subsection above.

Waiver Of Jury Trial: This provision limits your rights to a jury trial. You should review this
section carefully. If you and we have any dispute related to this Agreement, your Account, or any
transactions involving your Account and (i) neither you nor we seek to compel arbitration of the
dispute, or (ii) some or all of the arbitration section is unenforceable and the dispute will be
resolved in court, then you and we agree voluntarily and knowingly to waive any right each may
have to a jury trial to the fullest extent permitted by law.
Attorneys’ Fees. In any action between you and us in court, the prevailing party will be entitled to
receive from the other party an amount equal to the reasonable attorneys’ fees the prevailing party
incurred in bringing or defending the court action.
(b)

This subsection (b) applies if you reside in California.

Judicial Reference: Either you or we may ask to settle disputes by judicial reference under the
provisions of the California Civil Code, Sections 638-645.1, unless the dispute is part of a class action.
This judicial reference provision limits your ability to ask a court to hear a dispute and your right
to a jury trial. By agreeing to judicial reference, you and we waive, and shall not have, any right to
a jury trial. You should review this section carefully. It explains how judicial reference works.
Some Legal Rights May Not Be Available in Judicial Reference: Judicial reference is a proceeding
where disputes are decided by a judicial referee. The judicial referee will receive evidence at a hearing
and then issue a statement of decision upon which a judgment is based. You and we agree that the

11

referee will have the power to decide all issues of fact and law, to issue a statement of decision, and to
provide all legal and equitable relief appropriate based on the evidence provided at the hearing.
•

What Disputes Are Covered: Any dispute that arises from or relates to this Agreement, your
Account and any transaction involving the Account will be settled by judicial reference unless it is
described below in “What Disputes Are Not Covered.” This means that disputes about the
following are covered:
o

This Agreement, your Account or any transaction involving the Account;

o

Any advertisement, promotion or oral or written statement related to this Agreement or
your Account;

o

Any relationships that result from this Agreement (including, as far as applicable law will
allow, relationships with third parties who are not parties to this Agreement or this judicial
reference provision);

o

The validity, interpretation, scope or enforceability of this Agreement (except for any
challenge to the enforceability of this Dispute Resolution section or any dispute about the
parts of this subsection (b) about class disputes); and

o

Whether it is too late to settle a dispute because of any statute of limitations, estoppel,
waiver, laches or similar legal rule.

It doesn’t matter whether the dispute is based on contract, fraud, tort, intentional tort, statute,
regulation, constitution, common law, equity or otherwise. It also doesn’t matter when the dispute
began (whether before this Agreement, now or in the future). This judicial reference provision will
continue to apply after this Agreement ends and/or after you or we close the Account.
•

What Disputes Are Not Covered: This judicial reference provision does not cover any dispute:
o

That you or we could take to a small claims court, which usually limits its cases based on
the amount of the claim; or

o

About the parts of this judicial reference provision that prohibit class disputes.

•

No Class Disputes: A claim by, or on behalf of, other persons will not be considered in, joined
with, or consolidated with, the judicial reference proceedings between you and us. Any such
claim will be resolved in a court of proper jurisdiction.

•

Who Will Serve as Referee: You and we agree that a single referee who is a retired California
state or federal court judge shall be appointed by the court under California Code of Civil
Procedure 640 and shall preside over the reference proceeding and decide all issues of fact and
law. If you and we are unable to agree upon a referee within 10 days of a written request for
judicial reference by any party, then any party may ask a court to appoint a referee under the
California Code of Civil Procedure, Sections 638 and 640, and may nominate up to three retired
state or federal court judges to serve as this referee.

•

How To Start a Judicial Reference Proceeding: Either you or we may start a judicial reference
proceeding by giving written notice to the other party. At a minimum, this notice must describe the
subject of the dispute and the result requested in the judicial reference proceeding by the party
giving the notice.

•

When a Party May Ask for Judicial Reference: You or we may ask for judicial reference before or
after a lawsuit has been filed. You or we must ask for judicial reference within the statute of
limitations that would apply to the same dispute in court. If it is too late to resolve the dispute in
court, it is also too late to resolve it in judicial reference.

•

What the Referee Must and May Not Do: The referee must:
12

•

o

Make decisions and awards based on the evidence and applicable substantive law and
the rules of evidence used in federal courts;

o

Make decisions and awards only with respect to claims made by or against you
individually;

o

Provide a statement of decision indicating how each dispute was decided, along with a
concise written explanation of the basis for the award. The referee’s statement of
decision must contain written findings of fact and conclusions of law. The court shall enter
judgment thereon under California Code of Civil Procedure Sections 644(a) and 645.
After this judgment is entered, the decision of the referee shall then be appealable as if
made by the court.

o

Not make any award that would require you and us to continue any relationship we may
have under this Agreement or otherwise.

Other Rights and Remedies: Nothing in this judicial reference provision will limit certain other
rights you or we may have. This means that you or we could, for example:
o

Get an injunction, which is a court order to stop someone from doing something; or

o

File an interpleader action, which is a type of lawsuit used to decide who owns property
that more than one person claims to own.

If you or we do any of these things or take part in any other court case, it does not affect your or
our rights under this judicial reference provision.
•

What Happens If Part or All of This Judicial Reference Provision Cannot Be Enforced: If any
portion of this judicial reference provision is not enforced other than the “No Class Disputes”
section, the remaining portions of it will remain enforceable. This judicial reference provision shall
survive termination of this Agreement and the closing of your Account.

Attorneys’ Fees. In any action between you and us, regardless of whether the action is in court or in
judicial reference, each party must pay its own attorney, expert, and witness fees, regardless of how the
dispute is resolved.
California Residents: You understand and agree that interest is compounded under the terms of this Agreement.
Maryland Residents: You have the right under Maryland Commercial Law Code Section 12-510 to receive an
answer to a written inquiry concerning the status of your Account. Finance charges will be imposed on the
outstanding balances from month to month in amounts or at rates not in excess of those permitted by law.
New Jersey Residents: Because certain provisions of this Agreement are subject to applicable law, they may be
void, unenforceable or inapplicable in some jurisdictions. None of these provisions, however, is void,
unenforceable or inapplicable in New Jersey.
NOTICE TO THE BUYER - DO NOT SIGN THIS CREDIT AGREEMENT BEFORE YOU READ IT OR IF IT
CONTAINS BLANK SPACES. YOU ARE ENTITLED TO A COPY OF THIS AGREEMENT. KEEP IT TO
PROTECT YOUR LEGAL RIGHTS.
Signatures:
You: Any handwritten, electronic or digital signature provided by you or any person whom you allow to use the
Account on any document in connection with opening or using your Account serves as your signature on this
Agreement.
Bank: We have signed this Agreement as follows:

13

A. Smith
Vice President
BBVA USA
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at the payment address shown on your bill.
In your letter, give us the following information:
•

Account information: Your name and account number.

•

Dollar amount: The dollar amount of the suspected error.

•

Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why
you believe it is a mistake.

You must contact us:
•

Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an error:
•

We cannot try to collect any amount in question, or report you as delinquent on that amount.

•

The charge in question may remain on your statement, and we may continue to charge you interest on that
amount.

•

While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

•

We can apply any unpaid amount against the amount available to you on your credit line.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to
that amount.

14

•

If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the amount that you owe and the date payment is due. We
may then report you as delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must
let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question, even if
your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have made in your home state or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if we own the company that sold you the goods or
services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the
payment address shown on your bill.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

15

BBVA Wealth Management Visa Signature Credit Card Account
Pricing Information as of March 31, 2021.
This pricing information is accurate as of the date listed above, but may have changed after that date. You can
always find out the most current pricing information by contacting us at: BBVA USA, P.O. Box 2210, Decatur, AL
35699 or 1-866-681-0484.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime* + 1.99%

APR for Cash Advances

Prime* + 1.99%

This APR will vary with the market based on the Prime Rate.

This APR will vary with the market based on the Prime Rate.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.

Fees
Transaction Fees
 Cash Advance

Either $10 or 2% of the amount of each cash advance, whichever is greater
(maximum fee: $100) - not charged on any cash advance obtained through use of
a check

 Foreign Transaction

2% of each transaction in U.S. dollars

Penalty Fees
 Late Payment

Up to $25

 Returned Payment

Up to $25

How We Will Calculate Your Balance: We use a method called "average daily balance.” See account
agreement for more details.
*For each billing cycle, we use the Prime Rate from The Wall Street Journal in effect at the close of business on
the last business day of the calendar month ending within that billing cycle. Your APRs may increase if the Prime
Rate increases. If your APRs increase, the amount of interest you will owe and the Minimum Payment Due may
increase.
BBVA is a trade name of BBVA USA, a member of the BBVA Group.

F03-X957-1 Y/CFPB MLA rev 06/2019 RB

16

